HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare Part B
Claims Processed by Triple-S, Inc., for the Period January 1, 2003, Through
December 31, 2005," (A-02-07-01041)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments for Medicare Part B
Claims Processed by Triple-S, Inc., for the Period January 1, 2003, Through
December 31, 2005," (A-02-07-01041)
February 21, 2008
Complete
Text of Report is available in PDF format (472 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Triple-S, Inc.s
high-dollar (Triple-S) Medicare payments to Part B providers were appropriate.
During calendar years 20032005, Triple-S processed 13 Part B payments of
$10,000 or more.  Of the 13 high-dollar payments that Triple-S made to
providers, 3 were appropriate.  However, for the 10
remaining payments, Triple-S overpaid providers $45,426 for 4 payments and
CMSs Program Safeguard Contractor was reviewing 6 payments.  Providers refunded two of the four
overpayments, totaling $32,445, prior to our fieldwork.  Two overpayments,
totaling $12,981, remained outstanding.
We recommended
that Triple-S (1) recover the $12,981 overpayment and (2) consider identifying
and recovering any additional overpayments made for high-dollar Part B claims
paid after calendar year 2005.
Triple-S agreed with our first recommendation.
Regarding our second recommendation,
Triple-S stated that it implemented a computer edit on May 16, 2007, to identify
and help recover potential high-dollar overpayments.  However, Triple-Ss action
did not address any potential high-dollar overpayments made between January 1,
2006, and May 15, 2007.